Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Audit of Medicare Part A Administrative Costs for the Period October 1, 2005, Through September 30, 2006-United Government Services
July 28, 2008 | Audit A-05-08-00046
Executive Summary
United Government Services (UGS), a Medicare Part A contractor, reported unallowable costs totaling $114,000 because it overstated costs for senior executive compensation and entertainment in its Final Administrative Cost Proposal for fiscal year 2006.  UGS also reported $100,000 in legal settlement costs and $34,000 in non-senior-executive compensation costs that may be unreasonable.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS